                                                                                                                     May 28, 2014

General Joseph F. Dunford, Jr.
Commander, U.S. Forces–Afghanistan, and
 Commander, International Security Assistance Force

Major General Kevin R. Wendel
Commanding General, Combined Security Transition
 Command – Afghanistan/Ministerial Advisory Groups

Major General Harold J. Greene
Deputy Commanding General, Combined Security Transition
 Command – Afghanistan


Dear Generals Dunford, Wendel, and Greene:

Thank you for your response regarding the current status of an Afghan Ministry of Interior pilot
program using mobile money technology 1 to pay salaries to the Afghan National Police (ANP). While
the vast majority of the ANP are paid through Electronic Funds Transfer (EFT) to individual bank
accounts, the mobile money system also appears to be an effective way to pay the salaries of the
ANP who live in remote areas and therefore do not have easy access to banks.

However, after reviewing the information you provided in response to my inquiry, I remain concerned
about the potential for theft from police salaries through the so-called “trusted agent” payment
process, which is used to pay 18 percent of the ANP. 2 Your response indicated that as much as half
of the ANP salaries paid through that “trusted agent” system are diverted or otherwise siphoned off
from rightful recipients by corrupt pay agents or other illicit means.

Based on those figures, SIGAR analysts conclude that up to $45.5 million dollars may be at risk of
diversion through the trusted agent payment option in Fiscal Year 2014 alone. That figure represents
roughly 9 percent of all Law and Order Trust Fund Afghanistan (LOTFA) salary payments to the ANP in
Fiscal Year 2014. 3

According to CSTC-A, LOTFA intends to expand enrollment in the mobile money payment program
from the current 1,100 to 3,200 over the next year. Increased participation in the program should
reduce the administrative and managerial costs per transaction associated with the mobile money
system. If expanded participation in the mobile money program results in lower costs and the virtual
elimination of salary-skimming, it will be a step forward.


1This is a system where individuals receive salary payments via mobile credits to an individual mobile phone subscriber accounts. These
mobile credits may be used at an existing network of stores to purchase goods and services, and to exchange for cash.
2   This is a method of salary payment that involves direct distribution of cash to ANP employees.
3 This analysis is based on funding data provided by the United Nations Development Program (UNDP) to SIGAR detailing total costs for
ANP salary and stipend payments forecasted for LOTFA in FY2014 and CSTC-A’s response to SIGAR-14-50-SP Inquiry Letter: ANP Mobile
Money Pilot Program, April 16, 2014, stating that 18% of all ANP salaries are paid through the trusted agent process and up to 50% of
trusted agent salary payments are diverted through corrupt practices.
As you know, the U.S. has spent billions of dollars to train and equip the ANP. Ensuring that police
officers receive their full salaries is critical to creating an honest, reliable, and sustainable police
force. A forthcoming SIGAR audit report will discuss in detail the methods used by the Afghan
government, CSTC-A, and the United Nations Development Programme to collect, validate, and use
ANP personnel and payroll data to account for reconstruction funds supporting ANP salaries.
Therefore, I request that you keep my staff apprised of any new developments relating to the
expanded use of mobile money technologies and their potential for reducing corruption.

Should you have any questions or need additional information, please contact me directly, or have
your staff contact Jack Mitchell, Director of Special Projects, at                             or
                .




                                                                     Sincerely,



                                                                     John F. Sopko
                                                                     Special Inspector General
                                                                       for Afghanistan Reconstruction


Attachment(s):            I. USFOR-A Response to SIGAR-14-50-SP Inquiry Letter
                          II. CSTC-A Response to SIGAR-14-50-SP Inquiry Letter
                          III. SIGAR-14-50-SP Inquiry Letter: ANP Mobile Money Pilot Program




SIGAR-14-61-SP Inquiry Letter: ANP Mobile Money Pilot Program Response                              Page 2
ATTACHMENT I: USFOR-A RESPONSE TO SIGAR-14-50-SP INQUIRY LETTER




SIGAR-14-61-SP Inquiry Letter: ANP Mobile Money Pilot Program Response   Page 3
ATTACHMENT II: CSTC-A RESPONSE TO SIGAR-14-50-SP INQUIRY LETTER




SIGAR-14-61-SP Inquiry Letter: ANP Mobile Money Pilot Program Response   Page 4
SIGAR-14-61-SP Inquiry Letter: ANP Mobile Money Pilot Program Response   Page 5
SIGAR-14-61-SP Inquiry Letter: ANP Mobile Money Pilot Program Response   Page 6
SIGAR-14-61-SP Inquiry Letter: ANP Mobile Money Pilot Program Response   Page 7
SIGAR-14-61-SP Inquiry Letter: ANP Mobile Money Pilot Program Response   Page 8
ATTACHMENT III: SIGAR-14-50-SP INQUIRY LETTER: ANP MOBILE MONEY PILOT
PROGRAM




SIGAR-14-61-SP Inquiry Letter: ANP Mobile Money Pilot Program Response   Page 9
SIGAR-14-61-SP Inquiry Letter: ANP Mobile Money Pilot Program Response   Page 10
SIGAR-14-61-SP Inquiry Letter: ANP Mobile Money Pilot Program Response   Page 11
